No. ______
OCTOBER TERM 2020

In the

Supreme Court of the United States
TERRY LEE FROMAN,

Petitioner,
v.
THE STATE OF OHIO,

Respondent.

PETITION FOR WRIT OF CERTIORARI
TO THE OHIO SUPREME COURT
APPLICATION FOR LEAVE TO PROCEED IN FORMA PUAPERIS
Petitioner Terry Lee Froman respectfully requests leave to file the attached
petition for writ of certiorari without payment of costs and to proceed in forma
pauperis.
Froman is indigent, and he has been found indigent and permitted to file in
forma pauperis in the Ohio Supreme Court and the Ohio Court of Appeals in all of
his previous filed cases. See Appointment Order, attached hereto as Attachment A.
Every court since Froman was indicted in 2014 on charges that carried the potential
for the death penalty has permitted him to proceed in forma pauperis.

Petitioner Terry Lee Froman respectfully requests leave to file the attached
petition for writ of certiorari without payment of costs and to proceed in forma
pauperis.
Respectfully submitted,
Office of the Ohio Public Defender
/s/Jessica Houston
Jessica Houston [0096485]
Assistant State Public Defender
Counsel of Record
Jessica.Houston@opd.ohio.gov
Kimberlyn Seccuro [0099232]
Assistant State Public Defender
Kimberlyn.Seccuro@opd.ohio.gov
250 East Broad Street, Suite 1400
Columbus, Ohio 43215
Ph: (614) 466-5394
Fax: (614) 644-0708
Counsel for Terry Lee Froman

2

Supreme Court of Ohio Clerk of Court - Filed February 19, 2021 - Case No. 2017-0938

State of Ohio
Case No. 2017-0938
v.
ENTRY
Terry Lee Froman
This cause came for further consideration upon the filing of appellant’s motion for
appointment of counsel. It is ordered by the court that the motion is granted and Jessica
Houston and Rachel Troutman are appointed to represent appellant for the purposes of
filing an application for reopening.
(Warren County Court of Common Pleas; No. 14CR30398)

Maureen O’Connor
Chief Justice

The Official Case Announcement can be found at http://www.supremecourt.ohio.gov/ROD/docs/

ATTACHMENT A

